                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A13030039                                                                           Page 1 of 1



                  We received an allegation of plagiarism in an NSF Proposal. 1 During our inquiry, we
         found that all of the text in question belonged to a co-author and collaborator on the Proposaf
         whose name and biographical sketch had inadvertently been excluded from the Proposal during
         its final preparation by a University administrator.

                   We therefore find that the allegation is unsubstantiated and, accordingly, this case is
         closed.




NSF OIG Form 2 (11102)
